                     The Office of Release Management
                         Can Improve Controls for
                    Modernization Program Coordination

                                 September 2004

                       Reference Number: 2004-20-157




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    September 16, 2004


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                          Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - The Office of Release Management Can
                                     Improve Controls for Modernization Program Coordination
                                     (Audit # 200420017)


      This report presents the results of our review of the effectiveness of the Business
      Systems Modernization Office’s (BSMO) Release Management activities to ensure
      released projects are tested, minimize crises and disruption to production processes,
      and deliver systems as described in the project plans, fulfilling stated requirements.
      This review was part of our Fiscal Year 2004 audit plan for reviews of the Internal
      Revenue Service’s (IRS) Business Systems Modernization (BSM) efforts.
      In summary, the BSMO created the Office of Release Management in 2001 as part of
      the BSM program. The Office of Release Management obtains services from the
      PRIME contractor1 and other BSM program contractors, coordinates the delivery of
      those services, and resolves problems with and between the contractors and the IRS.
      We reviewed the activities of two subordinate offices of the Office of Release
      Management: the Release Scheduling Office, which ensures development of
      strategic/long-term and near-term BSM project release2 planning to move from the
      current information systems to the modernized architecture;3 and the Integration Test
      and Deployment Office, which provides an integrated testing4 and deployment program
      to verify that business and systems requirements will be met by the BSM projects.


      1
        The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
      companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
      information technology.
      2
        A release is a specific edition or release of software.
      3
        The architecture is the design of a computer system. It sets the standard for all devices that connect to it and all the
      software that runs on it. The modernized architecture guides the organization of the BSM effort.
      4
        Integration testing ensures all system components (hardware and software) are working correctly and collectively
      with other related or dependent systems.
                                                         2

Generally, the Office of Release Management has served as an effective liaison
between the IRS and the BSM contractors in facilitating BSM program activities.
In 1998, the PRIME contractor was designated as the integrator5 of the BSM program.
Since that time, the BSM program has gone beyond the exclusive assignment of the
PRIME contractor as its integrator. For example, the BSMO acted as the integrator for
the Modernized e-File Project, and the Northrop Grumman Corporation is serving as the
integrator for the Custodial Accounting Project. The Office of Release Management has
helped facilitate the development, contracting, and testing activities for these
non-PRIME BSM projects. It has also performed integration responsibilities for
non-PRIME projects requiring the PRIME contractor’s services for using the modernized
infrastructure.6 Diversifying the development activities of the overall BSM program will
require the BSMO to consider how to assign responsibility for integrating these projects.
Without clearly defining who is the integrator for non-PRIME projects and documenting
the related responsibilities and processes, the BSMO cannot assure the successful
integration of projects developed by multiple contractors.
The Release Scheduling Office has evolved into what it is today by taking on
responsibilities as part of the overall BSM program development. The Release
Scheduling Office has performed its activities in response to needs of the BSM program
and has followed informal processes to accomplish its responsibilities. This Office has
recognized the need for formal processes and procedures and has begun documenting
some of its activities. However, further work is needed to develop and document its
activities to coordinate work and communicate project status among the BSMO, the
Information Technology Services organization, and the BSM contractors. Without
procedures, the Release Scheduling Office may not consistently perform the work or
perform all of the work needed to accomplish its mission.
The Integration Test and Deployment Office uses the Enterprise Life Cycle (ELC)7
Systems Evaluation Process Description (SEPD) to ensure the products provided to the
BSMO satisfy the contractual requirements. However, the SEPD does not completely
reflect this Office’s current responsibilities. Without sufficient detailed guidance, the
Integration Test and Deployment Office staff cannot ensure the work is performed
effectively and consistently.
To help provide clear direction in the development of the BSM program, we
recommended that the Chief Information Officer (CIO) determine whether and how the
BSMO will fulfill the BSM program integrator role and document the related
responsibilities and processes. Further, to help ensure the mission of the Office of

5
  An integrator is an organization that builds systems from a variety of diverse components and coordinates them
into a functioning whole.
6
  The modernized infrastructure under development is geographically dispersed over various sites and includes
numerous pieces of hardware and software, which must effectively communicate and interact with each other as
they support projects that provide benefits to taxpayers and IRS employees.
7
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
the risks of system development and ensure alignment with the overall business strategy. All IRS and PRIME
contractor personnel involved in BSM activities are required to follow the ELC.
                                                        3

Release Management is accomplished, we recommended that the CIO ensure
procedures are developed and issued for the Release Scheduling Office to review the
accuracy of the Integrated Master Schedule,8 manage Request for Information Services9
issues between the IRS and the BSM contractors, facilitate use of PRIME contractor
services for non-PRIME projects, and provide BSM contractor staff access to IRS
computer systems. Also, we recommended that the CIO ensure the SEPD is updated
to provide adequate guidance for the activities to be performed by the Integration Test
and Deployment Office staff.
Management’s Response: IRS management agreed with the report recommendations
and stated that corrective actions are underway to address them. Some responsibility
for implementing the recommendation to define the BSMO’s role and processes as the
BSM integrator will be addressed by the Office of the Associate CIO (ACIO) for
Enterprise Services. Steps are underway to restructure the Modernization and
Information Technology Services organization to include this new role. This ACIO will
ultimately manage, direct, and oversee crosscutting areas that involve highly complex,
mission critical information system initiatives. Further, the CIO agreed with the
recommendations to develop, complete, or update guidance for managing the activities
in the Office of Release Management, and is considering the report’s proposed
guidelines as presented in Appendix IV. Management’s complete response to the draft
report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




8
  The Integrated Master Schedule provides a schedule for project development and integration of all BSM projects.
9
  A Request for Information Services is required to document any service or product that a BSM project requires
from an IRS organization, in order for the project to successfully complete its work.
                   The Office of Release Management Can Improve Controls for
                               Modernization Program Coordination




                                                  Table of Contents


Background ............................................................................................... Page 1
The Office of Release Management Is Taking Positive Steps
to Document Its Activities .......................................................................... Page 2
The Integrator Role Is Not Clearly Defined in the
Modernization Program ............................................................................. Page 3
         Recommendation 1: .......................................................................Page 5

The Release Scheduling Office Does Not Have Formally
Documented Procedures to Direct Its Activities ........................................ Page 5
         Recommendation 2: .......................................................................Page 11

Testing Responsibilities Are Not Always Defined Clearly in the
Integration Test and Deployment Office’s Testing Procedures ................. Page 11
         Recommendation 3: .......................................................................Page 13

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 14
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Operating Procedures for the Office of Release
Management ............................................................................................. Page 18
Appendix V – Enterprise Life Cycle Overview ........................................... Page 22
Appendix VI – Management’s Response to the Draft Report .................... Page 26
             The Office of Release Management Can Improve Controls for
                         Modernization Program Coordination

                               The Internal Revenue Service (IRS) Business Systems
Background
                               Modernization Office (BSMO) created the Office of Release
                               Management in 2001 as part of the modernization
                               acquisition organization. The Office of Release
                               Management acquires services from the PRIME contractor1
                               and other Business Systems Modernization (BSM) program
                               contractors, coordinates the delivery of those services, and
                               resolves problems with and between the contractors and the
                               IRS.
                               The mission of the Office of Release Management is to help
                               facilitate BSM project development by ensuring projects are
                               thoroughly planned and tested as described in the project
                               plans. Additionally, it provides configuration management2
                               processes and procedures for all BSMO, PRIME contractor,
                               and other contractor personnel supporting the BSM
                               program.
                               To accomplish its mission, the Office of Release
                               Management has established three subordinate offices
                               assigned to perform the following activities:
                               •   The Release Scheduling Office ensures development of
                                   strategic/long-term and near-term BSM project release3
                                   planning to move from the current information systems
                                   to the modernized architecture.4
                               •   The Integration Test and Deployment Office provides an
                                   integrated testing5 and deployment program to verify
                                   that business and systems requirements will be met by
                                   the BSM projects.

                               1
                                 The PRIME contractor is the Computer Sciences Corporation, which
                               heads an alliance of leading technology companies brought together to
                               assist with the IRS’ efforts to modernize its computer systems and
                               related information technology.
                               2
                                 Configuration management involves establishing proper control over
                               approved project documentation, hardware, and software and assuring
                               changes are authorized, controlled, and tracked.
                               3
                                 A release is a specific edition or release of software.
                               4
                                 The architecture is the design of a computer system. It sets the
                               standard for all devices that connect to it and all the software that runs
                               on it. The modernized architecture guides the organization of the BSM
                               effort.
                               5
                                 Integration testing ensures all system components (hardware and
                               software) are working correctly and collectively with other related or
                               dependent systems.
                                                                                                  Page 1
                  The Office of Release Management Can Improve Controls for
                              Modernization Program Coordination

                                    •   The Configuration Management Office defines and
                                        documents the BSM configuration management process
                                        and procedures.
                                    This review was performed at the BSMO facilities in
                                    New Carrollton, Maryland, during the period March through
                                    June 2004. The scope of our work was limited to the
                                    activities of the Release Scheduling and Integration Test and
                                    Deployment Offices. We did not review the activities of the
                                    Configuration Management Office due to other recent audit
                                    work.6 The audit was conducted in accordance with
                                    Government Auditing Standards. Detailed information on
                                    our audit objective, scope, and methodology is presented in
                                    Appendix I. Major contributors to the report are listed in
                                    Appendix II. Appendix V presents an overview of the
                                    components of the Enterprise Life Cycle (ELC).7
                                    The Office of Release Management has generally served as
The Office of Release
                                    an effective liaison between the IRS and the BSM
Management Is Taking Positive
                                    contractors in facilitating BSM program activities. The
Steps to Document Its Activities
                                    Office has accomplished the liaison responsibilities by
                                    regularly hosting and attending meetings with the BSMO
                                    and PRIME contractor, such as the Delivery Integration
                                    Status conference call during which project testing and
                                    deployment status are monitored. Also, as the BSMO
                                    liaison, the Office of Release Management has generally
                                    acted as an effective contact point in communicating and
                                    elevating BSM issues to responsible IRS or PRIME
                                    contractor managers to address project development, testing,
                                    and deployment concerns. It has:
                                    •   Provided input to the Systems Evaluation Process
                                        Description (SEPD) guidance document that is used in
                                        managing the testing of BSM projects.




                                    6
                                      Additional Actions Are Needed to Establish and Maintain Controls
                                    Over Computer Hardware and Software Changes (Reference
                                    Number 2004-20-026, dated December 2003).
                                    7
                                      The ELC establishes a set of repeatable processes and a system of
                                    reviews, checkpoints, and milestones that reduce the risks of system
                                    development and ensure alignment with the overall business strategy.
                                    All IRS and PRIME contractor personnel involved in BSM activities are
                                    required to follow the ELC.
                                                                                                 Page 2
                 The Office of Release Management Can Improve Controls for
                             Modernization Program Coordination

                                   •   Developed the monitoring plan8 and acquisition
                                       management plan9 for the Non-PRIME Projects
                                       Integration Office Task Order.10
                                   •   Drafted procedures to assist non-PRIME projects
                                       interested in obtaining PRIME contractor services.
                                   Although the Office of Release Management is taking steps
                                   to document its procedures, it needs to either complete or
                                   further enhance documentation for the activities it performs.
                                   This report addresses the activities performed by the
                                   Release Scheduling Office and the Integration Test and
                                   Deployment Office that need documented guidance.
                                   During previous efforts in the 1990s to modernize its
The Integrator Role Is Not
                                   information systems, the IRS acted as the integrator11 of the
Clearly Defined in the
                                   Tax Systems Modernization (TSM) program. In July 1995,
Modernization Program
                                   the Government Accountability Office (GAO) [formerly the
                                   General Accounting Office] expressed concerns with the
                                   TSM program performance and reported that the IRS’
                                   system architecture, integration, testing and test planning
                                   were incomplete.12 The IRS subsequently disbanded the
                                   TSM effort.
                                   When the modernization effort resumed in 1998, the PRIME
                                   contractor was designated as the integrator of the BSM
                                   program. However, the BSM program has gone beyond the
                                   exclusive assignment of the PRIME contractor as its
                                   integrator.




                                   8
                                     The monitoring plan provides detailed technical oversight of the
                                   contractor’s performance.
                                   9
                                     An acquisition management plan provides the acquisition strategy,
                                   relevant policies that will be followed, tasks to be performed, resources
                                   needed, and other planning-related information for project development.
                                   10
                                      The Non-PRIME Projects Integration Office Task Order is used to
                                   contract for PRIME contractor services to implement projects to operate
                                   with the modernized infrastructure. Modifications to the task order are
                                   developed for each project obtaining the PRIME contractor’s services.
                                   11
                                      An integrator is an organization that builds systems from a variety of
                                   diverse components and coordinates them into a functioning whole.
                                   12
                                      Tax Systems Modernization: Management and Technical Weaknesses
                                   Must Be Corrected If Modernization Is to Succeed
                                   (GAO/AIMD-95-156, dated July 1995).
                                                                                                    Page 3
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  For example, the BSMO acted as the integrator for the
                  Modernized e-File Project,13 and the Northrop Grumman
                  Corporation is serving as the integrator for the Custodial
                  Accounting Project.14 The Office of Release Management
                  has helped facilitate the development, contracting, and
                  testing activities for these non-PRIME Modernization
                  projects. It has also performed integration responsibilities
                  for non-PRIME projects requiring PRIME contractor
                  services for using the modernized infrastructure.15 These
                  activities are described in more detail in a later section of
                  this report.
                  Further, the IRS Commissioner recently decided to use a
                  contractor other than the PRIME contractor for the
                  development of the BSM Collection Contract Support
                  (CCS) Project.16 For the CCS Project, the BSMO will have
                  to decide whether it will take over the integration of the
                  system into the modernized infrastructure, contract with the
                  PRIME contractor to perform the integration activities, or
                  use another contractor for the integration activities.
                  Diversifying the development activities of the overall BSM
                  program will require the BSMO to consider how to assign
                  responsibility for integrating these projects. The Office of
                  Release Management’s mission may evolve into the role of
                  program integrator. Just as documenting the responsibilities
                  mentioned in the previous section will help the Office of
                  Release Management accomplish its mission, clearly
                  defining who is the integrator for non-PRIME projects and
                  documenting the related responsibilities and processes will


                  13
                     The Modernized e-File Project will develop the modernized
                  web-based platform for filing approximately 330 IRS forms
                  electronically, beginning with the selected forms for corporate and
                  tax exempt organization returns.
                  14
                     The Custodial Accounting Project is being developed to provide the
                  IRS a data warehouse of detailed taxpayer account information to be
                  used for analysis and financial reporting.
                  15
                     The modernized infrastructure under development is geographically
                  dispersed over various sites and includes numerous pieces of hardware
                  and software, which must effectively communicate and interact with
                  each other as they support projects that provide benefits to taxpayers and
                  IRS employees.
                  16
                     The CCS Project will leverage technology improvements and private
                  collection agencies to assist the IRS in collecting delinquent taxes.
                                                                                    Page 4
                The Office of Release Management Can Improve Controls for
                            Modernization Program Coordination

                                  be necessary to assure the successful integration of projects
                                  developed by multiple contractors.

                                  Recommendation

                                  1. To help provide clear direction in the development of
                                     the BSM program, the Chief Information Officer (CIO)
                                     should determine whether and how the BSMO will
                                     fulfill the BSM program integrator role and document
                                     the related responsibilities and processes.
                                  Management’s Response: The CIO will assign some of the
                                  responsibility for the implementation of this
                                  recommendation to the Office of the Associate CIO (ACIO)
                                  for Enterprise Services. Steps are underway to restructure
                                  the Modernization and Information Technology Services
                                  organization to include this new role. This ACIO will
                                  ultimately manage, direct, and oversee crosscutting areas
                                  that involve highly complex, mission critical information
                                  system initiatives such as demand analysis, enterprise
                                  architecture, configuration management, project reporting,
                                  enterprise life cycle management, and systems engineering.
                                  The Release Scheduling Office helps to ensure development
The Release Scheduling Office
                                  of strategic/long-term and near-term release planning to
Does Not Have Formally
                                  implement the modernized architecture. To accomplish this
Documented Procedures to Direct
                                  mission, it:
Its Activities
                                  •   Obtains services from the PRIME contractor’s Release
                                      Management Office, including the Integrated Master
                                      Schedule (IMS), which provides a schedule for project
                                      development and integration of all BSM projects.
                                  •   Attends and hosts various meetings with the BSMO,
                                      IRS, and BSM contractors to assist in communicating
                                      project status and to facilitate problem resolution. These
                                      liaison activities help minimize project disruption and
                                      promote project delivery.
                                  •   Coordinates project hardware and software requirements
                                      and project development services between the BSM
                                      contractor staff and the IRS.
                                  The Release Scheduling Office has evolved into what it is
                                  today by taking on responsibilities as part of the overall
                                  BSM program development. The Release Scheduling
                                                                                         Page 5
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  Office has performed its activities in response to needs of
                  the BSM program and has followed informal processes to
                  accomplish its responsibilities. It has recognized the need
                  for formal processes and procedures and has begun
                  documenting some of its activities.
                  Without procedures, the Release Scheduling Office may not
                  consistently perform the work or perform all of the work
                  needed to accomplish its mission. The GAO Standards for
                  Internal Control in the Federal Government state that
                  information should be recorded and communicated to
                  management and others within the entity who need it and in
                  a form and within a time period that enables them to carry
                  out their responsibilities.
                  The IMS does not include a review to ensure its accuracy
                  The IMS provides a schedule for project development and
                  integration of all BSM projects. The purposes of schedules
                  are to provide information needed to monitor and control the
                  work of the project or program and to identify dependencies
                  between project offices and other projects or organizations,
                  including IRS organizations.
                  Analysis of the IMS helps manage resources and focus
                  attention on those areas of the BSM program that pose the
                  most risk to a project’s schedule objectives. The IMS
                  furnishes the ability to identify critical milestones and
                  supporting activities, summarize detailed schedule data to
                  total program levels, and evaluate the impact of current
                  schedule performance on future activities and events.
                  The ELC includes a requirement that the BSMO perform
                  quality reviews and validation of program and release
                  schedules, review program revisions and redirection, and
                  facilitate the dissemination and distribution of program
                  schedules. The Release Scheduling Office receives the
                  release schedules and the IMS from the PRIME contractor
                  but has not been reviewing the content of the schedules. It
                  has relied on the PRIME contractor to produce the schedules
                  and on the BSM project staff members to identify and
                  address any inaccuracies in the schedules.
                  In March 2004, the IRS received results from a review of
                  the IMS activities conducted by an independent consulting
                  firm. The reported problems with the IMS included
                                                                        Page 6
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  observations that it has been consistently inaccurate and
                  unreliable. The independent consulting firm provided
                  recommendations that included developing a formal review
                  process to ensure IMS integrity.
                  The Release Scheduling Office is currently working with
                  the BSMO Business Integration Program Control Office to
                  develop guidance to effectively assess the reliability and
                  accuracy of the IMS. Currently, the Business Integration
                  Program Control Office performs analyses of portions of the
                  IMS. However, this Office has not prepared and published
                  guidance to perform these analyses.
                  Guidance is not in place for coordinating the completion
                  of Request for Information Services (RIS)17 issues
                  between the BSM contractors and the IRS
                  In the Release Scheduling Office’s role to provide support
                  to the PRIME contractor’s Release Management Office, it
                  becomes involved in resolving various types of issues
                  requiring clarification of project development activity. One
                  type of involvement is the Release Scheduling Office’s role
                  in coordinating completion of RIS issues in weekly RIS
                  meetings. The purpose of these meetings is to discuss the
                  current RIS requirements and come to agreement on the RIS
                  expectations.
                  The Release Scheduling Office is responsible for resolving
                  RIS issues if a BSM contractor and the IRS have reached an
                  impasse regarding the requested information technology
                  service. The resolution of these issues becomes significant
                  when the issues affect the work performance on a BSM
                  project. If the Release Scheduling Office cannot negotiate a
                  resolution, the unresolved RIS issue is forwarded to BSM
                  executives. During the BSM executive meetings, the issues
                  are discussed and a compromise is secured. Once a RIS
                  issue has been resolved, the RIS is added to the IMS and the
                  IRS proceeds to develop and deliver the required service.
                  The Release Scheduling Office currently has no guidance to
                  manage the coordination of RIS issues between the IRS and


                  17
                    A RIS is required to document any service or product that a BSM
                  project requires from an IRS organization, in order for the project to
                  successfully complete its work.
                                                                                    Page 7
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  BSM contractors. It did not consider its involvement in the
                  resolution of RIS issues significant enough to require
                  specific procedures.
                  Without a documented RIS process, Release Scheduling
                  Office employees cannot ensure they provide adequate and
                  consistent coordination to effectively resolve RIS issues
                  between the IRS and the BSM contractors. If RIS issues are
                  not resolved timely, they could delay the IRS from
                  performing the required services for the BSM contractors,
                  thus affecting the completion of a BSM project.
                  Guidance is not in place to assist non-PRIME projects in
                  acquiring the PRIME contractor’s services to use the
                  modernized infrastructure
                  The Release Scheduling Office is responsible for assisting
                  non-PRIME projects in acquiring the PRIME contractor’s
                  services to use the modernized infrastructure. Non-PRIME
                  projects include BSM projects not being developed by the
                  PRIME contractor and projects being developed by the IRS
                  that require the use of the modernized infrastructure. The
                  Release Scheduling Office assists non-PRIME projects’
                  staffs by coordinating contracting activities with the PRIME
                  contractor.
                  The Release Scheduling Office has developed a listing that
                  identifies and controls the precontract award activities for
                  non-PRIME projects interested in obtaining the PRIME
                  contractor’s services. It has also developed a draft
                  procedure with additional detail for some of the precontract
                  award activities included in the listing. In addition, it has
                  developed a monitoring plan that describes the principal
                  roles, responsibilities, and procedures for monitoring the
                  contractor’s performance under the task order. While these
                  documents provide the activities that need to be performed,
                  they do not include sufficient detail to guide all activities
                  that the Release Scheduling Office needs to perform to
                  facilitate use of the PRIME contractor’s services.
                  As of March 30, 2004, there were four non-PRIME BSM
                  projects (Modernized e-File, Custodial Accounting Project,
                  Internet Employer Identification Number, and Internet
                  Refund Fact of Filing) that had ongoing PRIME contract
                  activities for services to use the modernized infrastructure.

                                                                         Page 8
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  The Release Scheduling Office is coordinating and
                  managing these PRIME contract activities. In addition, it
                  coordinates preaward contract assessments that provide a
                  project with a cost estimate for the project to use the
                  modernized infrastructure. As of March 30, 2004, there
                  were two BSM projects (Enterprise-wide Relationship
                  Management and Individual Taxpayer Identification
                  Number) in the process of having preaward contract
                  assessments developed.
                  The BSMO Acquisition Management Directives provide the
                  policy for determining the adequacy of contract
                  performance. While there is guidance for assessing contract
                  performance activities, the guidance does not provide the
                  detail needed to conduct the non-PRIME contract
                  assessment activities that the Release Scheduling Office is
                  responsible for performing.
                  Without detailed documented guidelines about facilitating
                  the non-PRIME project activities, the Release Scheduling
                  Office staff cannot assure consistent and effective assistance
                  to non-PRIME projects seeking to use the modernized
                  infrastructure. If the Office of Release Management
                  assumes an expanded role as integrator with the number of
                  non-PRIME projects increasing, detailed procedures will
                  become more important to ensure a smooth process for
                  using the modernized infrastructure.
                  Guidance is not in place to facilitate access to IRS
                  systems for BSM contractors
                  The IRS developed an automated online system to control
                  personnel requests and access to the IRS information
                  systems. This online system replaced a manual process that
                  used a paper form, Information System User
                  Registration/Change Request (Form 5081), to control
                  access. When developing the automated online system
                  (known as the Online 5081), the IRS did not develop a
                  process for contractor personnel to request access to the
                  IRS’ information systems. The automated system was
                  designed to compare requests for access against the IRS
                  payroll system and verify that the personnel were actually
                  IRS employees. Since contractor personnel are not in the
                  payroll system, IRS personnel requesting access for them
                  could not complete the requests using the automated system.
                                                                         Page 9
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  For example, during the development of the e-Services
                  Project, work stoppage occurred because the PRIME
                  contractor had difficulty gaining access to IRS systems.
                  Since a process was not in place to request and gain access
                  to IRS systems for contractor personnel, the BSMO Office
                  of Release Management assumed responsibility for assisting
                  the PRIME contractor personnel in obtaining access to the
                  IRS systems.
                  The Release Scheduling Office began a weekly
                  teleconference to resolve immediate work stoppages and to
                  facilitate the resolution of issues that may become work
                  stoppages. In addition, it assisted PRIME contractor
                  personnel in obtaining access to IRS systems by manually
                  entering them into the online system. The Release
                  Scheduling Office has now assumed the role for controlling
                  the nonautomated requests for system access for all BSM
                  contractor personnel. It currently has no formal documented
                  guidance for non-IRS personnel using the nonautomated
                  process to obtain access to IRS systems.
                  Without a documented process, the Office of Release
                  Management staff responsible for the nonautomated process
                  cannot assure consistent and effective management of this
                  process. If contractors are not able to obtain timely access
                  to IRS systems, work stoppages may occur. The work
                  stoppages could result in additional costs for those affected
                  BSM projects, since the contractors would continue to
                  charge the IRS for the time they are unable to perform work
                  on the IRS systems. In addition, if system access is not
                  properly managed and contractors’ access is not timely
                  removed, there could be unauthorized access to IRS
                  systems.
                  The Modernization and Information Technology Services
                  organization is currently implementing new network access
                  procedures as part of the IRS’ transition to a new operating
                  system infrastructure. Users, including most contractors,
                  will be required to use a Standard Employee Identifier
                  (SEID) to access the IRS computer information systems
                  network. To obtain an SEID, the IRS must register the
                  contractors in the Online 5081 database. This process is
                  planned to begin implementation in July 2004. The Release


                                                                       Page 10
                The Office of Release Management Can Improve Controls for
                            Modernization Program Coordination

                                   Scheduling Office needs to ensure compliance with the
                                   IRS-wide guidance.

                                   Recommendation

                                   2. To help ensure the mission of the Office of Release
                                      Management is accomplished, the CIO should ensure
                                      procedures are developed and issued for:
                                      •   Reviewing the accuracy of the IMS.
                                      •   Managing RIS issues between the IRS and the BSM
                                          contractors.
                                      •   Facilitating use of PRIME contractor services for
                                          non-PRIME projects.
                                      •   Providing BSM contractor staff access to IRS
                                          computer systems.
                                      For details of the specific procedures to consider, see
                                      Appendix IV.
                                   Management’s Response: The CIO directed the Office of
                                   Release Management to develop and issue procedures to
                                   help ensure it accomplishes its mission. In developing these
                                   procedures, the Office of Release Management is
                                   considering this report’s proposed guidelines.
                                   The Integration Test and Deployment Office coordinates
Testing Responsibilities Are Not   and oversees integration test and deployment activities from
Always Defined Clearly in the      the end of project development through deployment. It
Integration Test and               reviews requirements for testability and assesses test
Deployment Office’s Testing        environment readiness. It also ensures accomplishment of
Procedures                         test and deployment planning, execution, reporting, and
                                   monitoring.
                                   The Integration Test and Deployment Office uses the ELC
                                   SEPD to ensure the products provided to the BSMO satisfy
                                   the contractual requirements (i.e., systems software and
                                   hardware requirements, contractual agreements, conditions,
                                   and terms). The Integration Test and Deployment Office
                                   provided input to the SEPD about its role in testing
                                   activities. However, the SEPD does not completely reflect
                                   its current responsibilities.


                                                                                        Page 11
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  •   The SEPD requires the Integration Test and Deployment
                      Office to ensure rescheduling of tests previously
                      deferred. When a test is deferred, the project team may
                      prepare a change request. The Integration Test and
                      Deployment Office looks at all impending change
                      requests once they are approved. However, the SEPD
                      does not require verification that a change request has
                      been completed for all deferred tests.
                  •   The SEPD requires the Integration Test and Deployment
                      Office to coordinate reviewing and approving or
                      rejecting requests to waive or defer tests to allow testing
                      to proceed. However, current guidance does not provide
                      the attributes of test waivers or deferrals that should be
                      reviewed or verified.
                  •   The SEPD requires the Integration Test and Deployment
                      Office to resolve problems that continue into the
                      postdevelopment stage (after ELC Milestone 4) of a
                      project (see Appendix V for an overview of the ELC).
                      The Integration Test and Deployment Office manager
                      informed us that this activity is the responsibility of the
                      specific BSM project office.
                  •   The SEPD does not include a requirement for reviewing
                      test folders documenting test results for completeness.
                      However, the Integration Test and Deployment Office
                      manager considered test folder reviews necessary, and
                      his staff does review test folders to ensure tests were
                      properly performed.
                  •   The Integration Test and Deployment Office’s mission
                      statement includes responsibility for reviewing whether
                      requirements can be tested. However, the SEPD does
                      not include any tasks or activities to accomplish this.
                  Without sufficient detailed guidance, the Integration Test
                  and Deployment Office cannot ensure its work is performed
                  effectively and consistently. In addition, with the SEPD
                  incorrectly assigning the Integration Test and Deployment
                  Office responsibility for an activity, it would be held
                  accountable for completing an activity that is outside of its
                  scope of responsibility.


                                                                         Page 12
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                  Recommendation

                  3. The CIO should ensure the SEPD is updated to provide
                     adequate guidance for the activities to be performed by
                     the Integration Test and Deployment Office staff. For
                     details of the specific procedures to consider, see
                     Appendix IV.
                  Management’s Response: The CIO directed the Office of
                  Release Management to develop and issue procedures under
                  the SEPD to provide the specific guidance to address the
                  issues recommended.




                                                                      Page 13
                   The Office of Release Management Can Improve Controls for
                               Modernization Program Coordination

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the Business Systems
Modernization Office’s (BSMO) Release Management activities to ensure released projects are
tested, minimize crises and disruption to production processes, and deliver systems as described
in the project plans, fulfilling stated requirements. This review was part of our Fiscal Year 2004
audit plan for reviews of the Internal Revenue Service’s (IRS) Business Systems Modernization
(BSM) efforts. To accomplish our objective, we:
I.      Determined the purpose for establishing the BSMO Office of Release Management and
        whether it provided effective direction for the BSM program.
        A. Determined how the Office of Release Management participated in the assessment of
           the BSMO’s progress.
        B. Determined how the Director, Release Management, managed and assessed the
           effectiveness and efficiency of the Office of Release Management.
II.     Determined whether the addition of program guidance could improve the effectiveness of
        the Office of Release Management.
        A. Identified Enterprise Life Cycle (ELC)1 guidance that could provide the Office of
           Release Management with procedures to direct its activities.
        B. Determined how the Release Scheduling and Integration Test and Deployment
           Offices within the Office of Release Management conducted and documented their
           work.
        C. Determined what specific procedures were needed to guide the Release Scheduling
           Office staff in overseeing the PRIME contractor’s work, resolving problems that
           arise, and assisting non-PRIME projects in acquiring the PRIME contractor’s
           services.


1
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
the risks of system development and ensure alignment with the overall business strategy. All IRS and PRIME
contractor personnel involved in BSM activities are required to follow the ELC. The PRIME contractor is the
Computer Sciences Corporation, which heads an alliance of leading technology companies brought together to assist
with the IRS’ efforts to modernize its computer systems and related information technology.




                                                                                                           Page 14
        The Office of Release Management Can Improve Controls for
                    Modernization Program Coordination

D. Determined what specific procedures were needed to guide the Integration Test and
   Deployment Office staff in coordinating testing activities, overseeing the PRIME
   contractor’s work, and resolving problems that arise during testing.
E. Determined whether the Office of Release Management coordination activities or
   recommendations have been adequately documented and controlled.




                                                                               Page 15
               The Office of Release Management Can Improve Controls for
                           Modernization Program Coordination

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Mark Carder, Senior Auditor
Michael Garcia, Senior Auditor
Beverly Tamanaha, Senior Auditor




                                                                                         Page 16
               The Office of Release Management Can Improve Controls for
                           Modernization Program Coordination

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Director, Stakeholder Management Division OS:CIO:SM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Director, Release Management OS:CIO:B:SI:RM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 17
                   The Office of Release Management Can Improve Controls for
                               Modernization Program Coordination

                                                                                                  Appendix IV


               Operating Procedures for the Office of Release Management

This appendix presents operating procedures for the Business Systems Modernization (BSM)
Release Scheduling and the Integration Test and Deployment Offices within the Office of
Release Management to consider in performing their work.

Release Scheduling Office

The Release Scheduling Office should consider developing procedures to describe its roles and
responsibilities in facilitating the following BSM program efforts:
        •    Reviewing the accuracy of the Integrated Master Schedule (IMS).1
        •    Coordinating completion of Request for Information Services (RIS)2 issues between
             the BSM contractors (the PRIME3 and other contractors providing BSM program
             services) and the Internal Revenue Service (IRS).
        •    Developing and managing a process for non-PRIME projects to acquire the PRIME
             contractor’s services.
        •    Developing and managing a process for BSM contractor staff to gain access to IRS
             information systems.
The following presents the possible elements for each of these activities:
Reviewing the accuracy of the IMS
The Release Scheduling Office, in coordination with the Business Integration Program Control
Office within the BSM Office, should consider developing and publishing detailed guidance and
assigning responsibility for reviewing the accuracy of the IMS that includes:
•   Assessing the accuracy of the IMS and the release schedule information received from the
    PRIME contractor, such as:
    -   IRS project tasks.
    -   Change requests.


1
  The IMS provides a schedule for project development and integration of all BSM projects.
2
  A RIS is required to document any service or product that a BSM project requires from an IRS organization, in
order for the project to successfully complete its work.
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                          Page 18
                 The Office of Release Management Can Improve Controls for
                             Modernization Program Coordination

    -   Cross-project dependencies including RISs and memoranda of understanding.
    -   Non-BSM project schedules.
    -   Other non-PRIME modernization project schedules.
•   Time periods for the Release Scheduling Office and Business Integration Program Control
    Office to perform IMS reviews.
•   A managerial approval process to assess the adequacy of the IMS review.
•   The IMS information used by BSM offices for assessing timelines, slippages, and overall
    performance.
•   A process to verify that the IMS and release schedules agree with project milestone
    completion dates. Steps need to be developed to resolve any discrepancies or issues, and the
    process needs to include procedures for escalating unresolved issues to executive
    management.
•   A periodic report detailing the status of issues that need reconciliation between the project
    status and the IMS status, along with a process to track and monitor issues and discrepancies
    identified, to ensure the next IMS has the corrected information.
Coordinating completion of RIS issues between the BSM contractors and the IRS
The Release Scheduling Office should consider developing procedures that include:
•   A description of the Release Scheduling Office staff’s roles and responsibilities in resolving
    differences in RIS requirements between the BSM contractors and the IRS.
•   A process for documenting the actions taken by the Release Scheduling Office to achieve
    resolution of differences in RIS requirements between the BSM contractors and the IRS. The
    process should include documentation to assess progress of the RIS resolution activity,
    including:
    -   RIS issue description.
    -   IRS organizations involved in the issue.
    -   Date the RIS issue was first considered by the Release Scheduling Office.
    -   Date the Release Scheduling Office achieved resolution of the RIS issue.
    -   If not resolved by the Release Scheduling Office, date the RIS issue was submitted to the
        BSM executives.
    -   Date the BSM executives achieved resolution of the RIS issue.
    -   History of actions taken to achieve resolution of the RIS issue.
    -   Date the RIS was placed on the IMS and verified by the Release Scheduling Office.

                                                                                            Page 19
                   The Office of Release Management Can Improve Controls for
                               Modernization Program Coordination

    -   Time period to achieve resolution of the RIS issue.
•   A managerial review to ensure RIS data accuracy.
•   Based on RIS data collected, a process to identify RIS issue trends to determine if similar
    issues continue to arise.
•   A process for preparing biweekly RIS status reports for the BSM executives’ meeting.
•   An outline for training Information Technology Services organization staff on the Release
    Scheduling Office’s role in the RIS issue resolution process.
Developing and managing a process for non-PRIME projects to acquire the PRIME
contractor’s services
The Release Scheduling Office should consider:
•   Updating draft guidance for integrating non-PRIME project activities into the modernized
    infrastructure4 to include:
    -   References to specific guidance, law, or criteria relied upon in performing non-PRIME
        project integration activities (e.g., providing input about contract specifications for
        accessing the modernized infrastructure).
    -   Detailed steps and templates for preparing proposed requisition and specific contract
        actions (referred to as definitization) to use the modernized infrastructure.
    -   The process used to definitize task order proposal modifications.
    -   The process and schedule for contract voucher reviews.
    -   The steps to resolve significant issues arising in project development before they need to
        be escalated to executive management.
    -   A managerial approval process for the non-PRIME integration activities to ensure the
        accuracy of the data and information being captured.
    -   A process to track funding.
    -   Any additional information templates/questionnaires/checklists to be completed about
        projects.
    -   Lessons learned from prior projects.
•   Updating the Office of Release Management web site to include information about the
    processes for IRS business units to use in obtaining the PRIME contractor’s services to
    integrate IRS information system development projects into the modernized infrastructure.

4
  The modernized infrastructure under development is geographically dispersed over various sites and includes
numerous pieces of hardware and software, which must effectively communicate and interact with each other as
they support projects that provide benefits to taxpayers and IRS employees.
                                                                                                        Page 20
                 The Office of Release Management Can Improve Controls for
                             Modernization Program Coordination

    This information should include the available PRIME contractor’s services, information
    templates/questionnaires to be completed about the project, and points of contact.
Developing and managing a process for BSM contractor staff to gain access to IRS
information systems
The Release Scheduling Office should consider developing guidance including:
•   A process to monitor BSM contractors with access to systems and their need for continued
    access to the systems.
•   Certification of security/background investigation completion before access is granted.
•   Verification that an IRS point of contact is listed.
•   A method to ensure managerial approval on the form is appropriate.
•   A process for tracking when the time period for the access has expired.
•   Steps to be followed, lessons learned, and points of contact to assist Release Scheduling
    Office staff in obtaining access to IRS systems for contractors and other non-IRS Federal
    Government employees.

Integration Test and Deployment Office

The Integration Test and Deployment Office provided input about its testing role to the guidance
document called the Systems Evaluation Process Description. Other items to consider include:
•   A step to verify that a change request has been completed for all test deferrals to ensure tests
    have been rescheduled for later testing.
•   A reference to standards or checklists for use in reviewing test waivers and deferrals.
•   A requirement for conducting test folder reviews along with the references to any standards
    or checklists to be used in conducting the reviews.
•   The specific steps to review requirements for testability.
•   The lessons learned and best practices in assessing testing processes and procedures.
•   The removal of requirements that the Integration Test and Deployment Office ensures
    disposition of deferrals and remaining product defects after testing is completed.




                                                                                              Page 21
                    The Office of Release Management Can Improve Controls for
                                Modernization Program Coordination

                                                                                                      Appendix V


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
•   Life-Cycle Processes, which are organized into phases and subphases and address all
    domains of business change.
•   Management Processes, which are organized into management areas and operate across the
    entire life cycle.




1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 22
                                      The Office of Release Management Can Improve Controls for
                                                  Modernization Program Coordination

                                                        Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                                Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                        Management Support Processes


                                                                                                     Business Processes




                                                                                                                              Operations & Support
                                                                                                             Applications
                  Vision & Strategy




                                                         Development
                                         Architecture




                                                                                     Deployment
                                                                       Integration
    Life Cycle




                                                                                                                     Data


                                                                                                  Organizational Change


                                                                                                  Technical Infrastructure


                                                                                                  Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.


                                                                                                                                                 Page 23
                The Office of Release Management Can Improve Controls for
                            Modernization Program Coordination

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.


                                                                                           Page 24
                The Office of Release Management Can Improve Controls for
                            Modernization Program Coordination

•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of system development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
       activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to
       authorize the release of performance-based compensation based on actual, measured
       performance of the business system.
                                                                                           Page 25
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination

                                                            Appendix VI


     Management’s Response to the Draft Report




                                                                 Page 26
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination




                                                            Page 27
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination




                                                            Page 28
The Office of Release Management Can Improve Controls for
            Modernization Program Coordination




                                                            Page 29
